September 2006
Report No. 06-019


Responses to Security-Related
Questions in OMB’s Fiscal Year 2006
Reporting Instructions for FISMA and
Agency Privacy Management
                                   Responses to Security-Related Questions in OMB’s
                                   Fiscal Year 2006 Reporting Instructions for FISMA
                                   and Agency Privacy Management

Background and                     Results of Audit
Purpose of Audit
                                   As KPMG’s responses to the OMB questions indicate, the FDIC has
To achieve its mission, the
FDIC relies heavily on             implemented plans of action and milestones, an incident response
automated information systems      capability, and security awareness and training that substantially address
to collect, process, and store     the criteria used by the OMB for assessing the status of those aspects of
vast amounts of banking            agency security programs. However, continued management attention is
information. Ensuring the          needed in some security control areas—such as information systems
integrity, availability, and
appropriate confidentiality of     inventory, oversight of contractor systems, certification and accreditation,
this information requires a        and security configuration management—to ensure compliance with
strong, enterprise-wide            FISMA and consistency with National Institute of Standards and
information security program.      Technology standards and guidelines. KPMG’s work did not identify any
                                   significant deficiencies in the FDIC’s information security program
The Federal Information
Security Management Act of         warranting consideration as a potential material weakness as defined by the
2002 (FISMA) directs federal       OMB.
agencies to have an annual
independent evaluation             The OMB questions focus on certain key components of the FDIC’s
performed of their information     information security program. We plan to issue a report entitled,
security program and practices
and to report the results of the   Independent Evaluation of the FDIC’s Information Security Program-2006
evaluation to the Office of        (FDIC-OIG Report No. 06-022), that provides an overall assessment of the
Management and Budget              FDIC’s information security program, including detailed results of work
(OMB), the Comptroller             performed in the areas covered by the OMB questions. The report also
General, and various               identifies key steps that the Corporation can take to strengthen its
congressional committees. In
addition, the OMB instructs        information security program.
agencies and cognizant
Inspectors General (IG) to
answer specific questions          Recommendations and Management Response
related to the status of their
security program as part of the
FISMA evaluation.                  The focus of this audit was on responding to OMB’s questions to the IGs.
                                   Accordingly, this report does not contain any recommendations. A written
The objective of this audit was    response was not required from the Corporation. However, the
to answer specific security-       Corporation provided informal comments, which were considered and
related questions addressed to     incorporated, as appropriate, into the report.
agency IGs in the OMB’s
July 17, 2006 memorandum
entitled, FY 2006 Reporting
Instructions for the Federal
Information Security
Management Act and Agency
Privacy Management. We
contracted with KPMG LLP
(KPMG) to perform this audit.

To view the full report, go to
www.fdicig.gov/2006reports.asp
   Responses to Security-Related Questions in OMB’s
Fiscal Year 2006 Reporting Instructions for FISMA and
             Agency Privacy Management
                (Report Number 06-019)


                   Prepared for the
         Federal Deposit Insurance Corporation
              Office of Inspector General

                   FINAL REPORT




                           Prepared by:
                            KPMG LLP
                 Advisory Services, Federal Practice
                        2001 M Street, NW
                      Washington, DC 20036
                           202-533-3000
                      TABLE OF CONTENTS

INTRODUCTION                                                    1

BACKGROUND                                                      1

RESULTS OF AUDIT                                                2

CORPORATION COMMENTS                                            2



APPENDICES

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                   3

APPENDIX II: RESPONSES TO OMB QUESTIONS                         4




ACRONYMS

C&A            Certification and Accreditation
CIO            Chief Information Officer
FDIC           Federal Deposit Insurance Corporation
FIPS           Federal Information Processing Standards
FISMA          Federal Information Security Management Act
GAO            Government Accountability Office
FY             Fiscal Year
IG             Inspector General
IT             Information Technology
KPMG           KPMG LLP
NIST           National Institute of Standards and Technology
OIG            Office of Inspector General
OMB            Office of Management and Budget
POA&M          Plan of Action and Milestones
ST&E           Security Test and Evaluation
INTRODUCTION

On July 17, 2006, the Office of Management and Budget (OMB) issued a memorandum
entitled, FY [Fiscal Year] 2006 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management. The OMB memorandum
directs agency Chief Information Officers (CIO) and Inspectors General (IG) to answer a
series of questions related to the performance of their respective agency’s information
security program. The Federal Deposit Insurance Corporation (FDIC) Office of Inspector
General (OIG) contracted with KPMG LLP (KPMG) to conduct a performance audit for
which the objective was to prepare responses to the OMB questions directed to the IGs.

The responses to the OMB questions are based on the results of work KPMG performed
in support of the FDIC OIG’s 2006 independent security evaluation1 required by the
Federal Information Security Management Act (FISMA) of 2002. The work included
assessing the information security policies, procedures, and practices for a representative
subset of the FDIC’s information systems2 as required by FISMA. Such work also
included an assessment of common security controls applicable to one or more FDIC
information systems and consideration of relevant information-security-related audits. In
addition, the FDIC OIG has contracted with KPMG for a separate report containing
information related to the FDIC’s privacy program.3 The information is also requested in
OMB’s reporting instructions.

Appendix I describes our objective, scope, and methodology. Appendix II contains the
responses to each of the information-security-related questions in the format prescribed
by the OMB Director.


BACKGROUND

Title III of the E-Government Act of 2002, commonly referred to as FISMA, requires
federal agencies, including the FDIC, to develop, document, and implement an agency-
wide information security program that provides security for the information and systems
that support the operations and assets of the agency, including those provided or managed
by another agency, contractor, or other source. FISMA directs federal agencies to report
annually to OMB, the Comptroller General, and various congressional committees on the
adequacy and effectiveness of agency information security policies, procedures, and
practices, including compliance with FISMA. In addition, OMB instructs each agency

1
    Independent Evaluation of the FDIC’s Information Security Program-2006 (FDIC-OIG Report
    No. 06-022), scheduled for issuance in September, 2006.
2
    We performed a detailed analysis of the FDIC’s local area network/wide area network and mainframe
    general support systems. We also performed a limited analysis of a contractor system (Central Data
    Repository).
3
    Response to Privacy Program Information Request in OMB’s Fiscal Year 2006 Reporting Instructions
    for FISMA and Agency Privacy Management (FDIC-OIG Report No. 06-018), dated September 22,
    2006.
and its IG to answer specific questions as part of the agency’s overall FISMA evaluation.
OMB uses the agency FISMA reports for various purposes, such as helping to evaluate
government-wide security performance, developing OMB’s annual security report to the
Congress, and assisting in improving and maintaining adequate agency security
performance.


RESULTS OF AUDIT

As KPMG’s responses to the OMB questions (see Appendix II) indicate, the FDIC has
implemented plans of action and milestones, an incident response capability, and security
awareness and training that substantially address the criteria used by the OMB for
assessing the status of those aspects of agency security programs. However, continued
management attention is needed in some security control areas—such as information
systems inventory, oversight of contractor systems, certification and accreditation, and
security configuration management—to promote compliance with FISMA and
consistency with National Institute of Standards and Technology (NIST) standards and
guidelines. KPMG’s work did not identify any significant deficiencies in the FDIC’s
information security program warranting consideration as a potential material weakness
as defined by the OMB.4

The OMB questions focus on certain key components of the FDIC’s information security
program. The OIG’s report, Independent Evaluation of the FDIC’s Information Security
Program-2006, provides an overall assessment of the FDIC’s information security
program, including detailed results of audit work in the areas covered by the OMB
questions. That report also identifies key steps that the Corporation can take to
strengthen its information security program. KPMG was also under contract with the
OIG to support this overall evaluation.


CORPORATION COMMENTS

A written response was not required for the report. However, the Corporation provided
informal comments, which were considered and incorporated, as appropriate, into the
report.




4
    The OMB defines a significant deficiency as a weakness in an agency’s overall information systems
    security program or management control structure, or within one or more information systems that
    significantly restricts the capability of the agency to carry out its mission or compromises the security of
    its information, information systems, personnel, or other resources, operations, or assets. In this context,
    the risk is great enough that the agency head and outside agencies must be notified, and immediate or
    near-immediate corrective action must be taken. The OMB defines a material weakness as a deficiency
    that the agency head determines to be significant enough to be reported outside the agency (i.e., included
    in the annual management control report to the President and the Congress).



                                                        2
                                                                                      APPENDIX I


                       OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the performance audit was to answer specific questions in OMB’s
July 17, 2006 memorandum (M-06-20) entitled, FY 2006 Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy Management. To
accomplish this objective, KPMG relied primarily on the results of the work it performed
in support of the OIG’s independent FISMA security evaluation.5 KPMG also performed
certain other audit procedures that we deemed necessary to accomplish the audit
objective. KPMG discussed each response to the OMB questions with the FDIC’s
Division of Information Technology’s Information Security Staff.

KPMG did not separately perform procedures to review program performance measures,
assess FDIC compliance with laws and regulations, evaluate the FDIC’s management
controls, or determine that computer-based data were valid and reliable. Such procedures
were performed in support of the OIG’s independent security evaluation required by
FISMA. Additionally, while KPMG did not design tests to detect fraud, waste, abuse,
and mismanagement, throughout the audit, KPMG and the OIG were sensitive to the
potential for fraud, waste, abuse, and mismanagement.

KPMG performed the audit at the FDIC’s Headquarters offices in Washington, D.C., and
its Virginia Square facility in Arlington, Virginia. Also, KPMG visited the FDIC’s
disaster recovery site in Richmond, Virginia. KPMG conducted the performance audit
from April through August 2006 in accordance with generally accepted government
auditing standards (GAGAS) issued by the Comptroller General of the United States.




5
    Independent Evaluation of the FDIC’s Information Security Program-2006 (Report No. 06-022),
    scheduled for issuance on September 28, 2006.



                                                   3
                                                                                                                                                                                            APPENDIX II



                                                                          RESPONSES TO OMB QUESTIONS

                                                                                                 Question 1 and 2

1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each
classification below (a., b., and c.).

To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
1) Continue to use NIST Special Publication 800-26, or,
2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not
meet the requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA
compliance.
2. For each part of this question, identify actual performance in FY 06 by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated,
identify the number of systems which have completed the following: have a current certification and accreditation, a contingency plan tested within the past year, and security controls tested
within the past year.

                                                                           Question 1                                                                              Question 2

                                                a.                            b.                            c.                         a.                            b.                            c.
                                          Agency Systems              Contractor Systems             Total Number of           Number of systems          Number of systems for          Number of systems for
                                                                                                        Systems                  certified and            which security controls       which contingency plans
                                                                                                                                  accredited               have been tested and            have been tested in
                                                                                                                                                         evaluated in the last year      accordance with policy
                                                                                                                                                                                             and guidance


                    FIPS 199 Risk        Total        Number          Total        Number          Total        Number          Total       Percent        Total          Percent of       Total         Percent of
Agency Name         Impact Level        Number       Reviewed        Number       Reviewed        Number       Reviewed        Number       of Total      Number            Total         Number           Total

FDIC               High                        0               0            0               0            0               0            0       N/A                  0         N/A                   0        N/A
                                                                                                                                                                      a
                   Moderate                  136               2            2               1          138               3            3      100.0%               2           66.7%                2          66.7%
                   Low                        19               0            0               0           19               0            0       N/A                  0         N/A                   0        N/A
                   Not
                   Categorized                 2               1            7               0            9               1            0         0.0%               0           0.0%                0           0.0%


                   Total                     157               3           9b               1          166               4            3       75.0%                2          50.0%                2          50.0%




a
  Security controls for one of the three certified and accredited systems had not been tested and evaluated during the current reporting period (i.e., August 1, 2005 through
  July 31, 2006). However, security control testing and evaluation was ongoing for this system at the time of the audit.
b
  KPMG was unable to independently verify the total number of contractor-maintained information systems because the FDIC’s systems inventory did not fully incorporate these
  systems. KPMG’s response to Question 1 reflects those contractor-maintained information systems that KPMG identified during the audit, as well as any systems identified for
  KPMG by the FDIC.




                                                                                                         4
                                                                                                                                                                                      APPENDIX II




                                                                                                  Question 3


In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.


         The agency performs oversight and evaluation to ensure information systems used or operated by a
         contractor of the agency or other organization on behalf of the agency meet the requirements of
         FISMA, OMB policy and NIST guidelines, national security policy, and agency policy. Self-reporting
         of NIST Special Publication 800-26 and/or NIST 800-53 requirements by a contractor or other
         organization is not sufficient, however, self-reporting by another Federal agency may be sufficient.
 3.a.                                                                                                            - Sometimes, for example, approximately 51-70% of the time
         Response Categories:
              - Rarely, for example, approximately 0-50% of the time
              - Sometimes, for example, approximately 51-70% of the time
              - Frequently, for example, approximately 71-80% of the time
              - Mostly, for example, approximately 81-95% of the time
              - Almost Always, for example, approximately 96-100% of the time


         The agency has developed an inventory of major information systems (including major national
         security systems) operated by or under the control of such agency, including an identification of the
         interfaces between each such system and all other systems or networks, including those not operated
         by or under the control of the agency.

3.b.1.   Response Categories:                                                                                          - Approximately 51-70% complete
              - Approximately 0-50% complete
              - Approximately 51-70% complete
              - Approximately 71-80% complete
              - Approximately 81-95% complete
              - Approximately 96-100% complete

                                                                                                                 Missing Agency Systems: Pegasys
                                                                                                                 We were unable to verify the number of system interfaces because the system inventory does
                                                                                                                 not identify system interfaces between each system and all other systems or networks,
                                                                                                                 including those not operated by or under the control of the FDIC.
3.b.2.   If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please list the
         systems that are missing from the inventory.                                                            After the audit, the FDIC's Information Security Section provided an inventory of 12 major
                                                                                                                 information systems with interfaces. We did not have the opportunity to determine whether the
                                                                                                                 inventory was comprehensive; based on, and consistent with, FDIC policy and procedures;
                                                                                                                 conforms to NIST guidance; or agrees with the FDIC's Enterprise Architecture.
                                                                                                                 Missing Contractor Systems: None

 3.c.    The OIG generally agrees with the CIO on the number of agency owned systems.                                                                        Yes

         The OIG generally agrees with the CIO on the number of information systems used or operated by a
3.d.                                                                                                                                                         Yes
         contractor of the agency or other organization on behalf of the agency.
 3.e.    The agency inventory is maintained and updated at least annually.                                                                                   Yes
 3.f.    The agency has completed system e-authentication risk assessments.                                                                                  Yes




                                                                                                       5
                                                                                                                                                                                         APPENDIX II




                                                                                                      Question 4

Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate
the degree to which the following statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the area
provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time


                             The POA&M is an agency wide process, incorporating all known IT security weaknesses
            4.a.             associated with information systems used or operated by the agency or by a contractor of the          - Mostly, for example, approximately 81-95% of the time
                             agency or other organization on behalf of the agency.



                             When an IT security weakness is identified, program officials (including CIOs, if they own or
            4.b.                                                                                                                   - Mostly, for example, approximately 81-95% of the time
                             operate a system) develop, implement, and manage POA&Ms for their system(s).



                             Program officials, including contractors, report to the CIO on a regular basis (at least quarterly)
            4.c.                                                                                                                   - Almost Always, for example, approximately 96-100% of the time
                             on their remediation progress.



            4.d.             CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.          - Almost Always, for example, approximately 96-100% of the time



            4.e.             OIG findings are incorporated into the POA&M process.                                                 - Mostly, for example, approximately 81-95% of the time



                             POA&M process prioritizes IT security weaknesses to help ensure significant IT security
            4.f.                                                                                                                   - Almost Always, for example, approximately 96-100% of the time
                             weaknesses are addressed in a timely manner and receive appropriate resources


Comments: Although the FDIC has developed policy and guidelines for preparing and managing system-level POA&Ms, the FDIC needed to modify its POA&M procedures to ensure that system-level
POA&Ms either reflect consolidation of, or are accompanied by, other FDIC plans to correct all relevant information technology (IT) security weaknesses, including weaknesses identified in Government
Accountability Office (GAO) and OIG reports and any other IT security review. Current certification and accreditation (C&A) guidelines provide that security test and evaluation (ST&E) weaknesses are included
in system-level POA&Ms. In addition, the FDIC tracks system-level security weaknesses in a number of standalone spreadsheets and databases based on how the weakness is identified. For example,
system-level security weaknesses identified by the GAO, OIG, or internal FDIC reviews are managed in the FDIC’s Internal Risks Information System; and system-level security weaknesses identified by
system tests and evaluations are managed in system-level POA&Ms. The Division of Information Technology can better integrate its management of security weaknesses by developing system-level POA&Ms
that include all relevant security weaknesses, either through consolidation or as a POA&M attachment.




                                                                                                           6
                                                                                                                                                                                          APPENDIX II




                                                                                                    Question 5




OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including adherence to
existing policy, guidance, and standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems” (May, 2004) for
certification and accreditation work initiated after May, 2004. This includes use of the FIPS 199 (February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to
determine an impact level, as well as associated NIST documents used as guidance for completing risk assessments and security plans.




                             Assess the overall quality of the Department’s certification and accreditation process.

                             Response Categories:
                                  - Excellent
                                                                                                                                 - Satisfactory
                                  - Good
                                  - Satisfactory
                                  - Poor
                                  - Failing




Comments: The FDIC established a C&A program consisting of policies, procedures, and guidelines; key personnel, such as a Certification Agent and Authorizing Official; an independent ST&E process; and
POA&Ms for tracking and remediating security weaknesses. In February 2006, the OIG issued an audit report recognizing that the FDIC’s C&A policies, procedures, and practices were satisfactory and
consistent with federal security standards and guidelines but that opportunities for enhancements in some areas could be made (Report No. 06-007, Audit of the FDIC’s Security Certification and Accreditation
Program, dated February 2006). At the close of KPMG’s audit, the FDIC was working to define information security risk management procedures for performing (a) continuous monitoring of its information
systems after accreditation and (b) contingency planning of its information systems.

The FDIC has fully certified and accredited all but one of its major applications and general support systems consistent with NIST security standards and guidelines. (The remaining major application is
operating under an interim authority to operate.) In addition, the FDIC revised its information security risk management methodology in June 2006 to achieve cost-efficiencies in its C&A processes by
consolidating its non-major information systems that process sensitive data through an aggregation process. However, more work remains to complete C&As for the FDIC’s non-major information systems that
process sensitive data.




                                                                                                         7
                                                                                                                                                                                          APPENDIX II




                                                                                                   Question 6

                               Is there an agency wide security configuration policy?
           6.a.                                                                                                                                                      Yes
                               Yes or No.
                               Comments: None

                               Configuration guides are available for the products listed below. Identify which software is addressed in the agency-wide security configuration policy. Indicate whether or not any
           6.b.
                               agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on the systems running the software.
                                                                                                                            Approximate the extent of implementation of the security configuration policy
                                                                                                                            on the systems running the software.

                                                                                                                            Response choices include:
                                                                                                                            - Rarely, or, on approximately 0-50% of the
                                                                                                                              systems running this software
                                                                                                                            - Sometimes, or on approximately 51-70% of
           Product
                                                                                                                              the systems running this software
                                                         Addressed in agencywide                                            - Frequently, or on approximately 71-80% of
                                                                 policy?                 Do any agency systems run            the systems running this software
                                                                                               this software?               - Mostly, or on approximately 81-95% of the
                                                                                                                              systems running this software
                                                                  Yes, No,                                                  - Almost Always, or on approximately 96-100% of the systems running this
                                                                  or N/A.                          Yes or No.               software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the systems running this
                  Windows XP Professional
                                                                     Yes                               Yes                           software
                  Windows NT                                         Yes                               Yes                        - Mostly, or on approximately 81-95% of the systems running this software
                  Windows 2000 Professional                          N/A                               No
                  Windows 2000 Server                                Yes                               Yes                        - Mostly, or on approximately 81-95% of the systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the systems running this
                  Windows 2003 Server
                                                                     Yes                               Yes                          software
                  Solaris                                            Yes                               Yes                        - Mostly, or on approximately 81-95% of the systems running this software
                  HP-UX                                              N/A                               No
                  Linux                                              Yes                               Yes                        - Mostly, or on approximately 81-95% of the systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the systems running this
                  Cisco Router IOS
                                                                     Yes                               Yes                          software
                  Oracle                                             Yes                               Yes                        - Mostly, or on approximately 81-95% of the systems running this software
                Other.                                             N/A                               No
Comments: The results in the far right-hand column are derived from KPMG’s analysis of the results from the FDIC’s July 2006 Foundstone vulnerability scan and the June 2006 Cisco Router Auditing Tool
data. Specifically, KPMG determined the extent to which the products KPMG sampled were consistent with the FDIC’s configuration requirements and best practices.




                                                                                                        8
                                                                                                                                                                                       APPENDIX II




                                                                                                   Question 7


Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.


                                                      The agency follows documented policies and procedures for
                       7.a.                           identifying and reporting incidents internally.                                                                  Yes
                                                      Yes or No.

                                                      The agency follows documented policies and procedures for external
                       7.b.                           reporting to law enforcement authorities.                                                                        Yes
                                                      Yes or No.
                                                      The agency follows defined procedures for reporting to the United
                                                      States Computer Emergency Readiness Team (US-CERT).
                       7.c.                                                                                                                                            Yes
                                                      http://www.us-cert.gov
                                                      Yes or No.
Comments: None

                                                                                                   Question 8
                                                      Has the agency ensured security training and awareness of all
                                                      employees, including contractors and those employees with
                                                      significant IT security responsibilities?

                                                      Response Choices include:
                                                      - Rarely, or, approximately 0-50% of employees have sufficient
                                                      training
                                                       - Sometimes, or approximately 51-70% of employees have
                        8                                                                                                       - Almost Always, or approximately 96-100% of employees have sufficient training
                                                      sufficient training
                                                       - Frequently, or approximately 71-80% of employees have sufficient
                                                      training
                                                       - Mostly, or approximately 81-95% of employees have sufficient
                                                      training
                                                       - Almost Always, or approximately 96-100% of employees have
                                                      sufficient training


                                                                                                   Question 9

                                                      Does the agency explain policies regarding peer-to-peer file sharing
                                                      in IT security awareness training, ethics training, or any other agency
                        9                                                                                                                                              Yes
                                                      wide training?
                                                      Yes or No.




                                                                                                        9
